U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




         2010 Census:
       Quarterly Report
          to Congress,
             May 2010

                 Final Report No. OIG-19791-4




            For Public Release
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington, D.C. 20230
                                           S>ATES O*

May 5, 2010

The Honorable Alan B. Mollohan                         The Honorable Frank R. Wolf
Chairman                                               Ranking Member
Subcommittee on Commerce, Justice,                     Subcommittee on Commerce, Justice,
 Science, and Related Agencies                          Science, and Related Agencies
Committee on Appropriations                            Committee on Appropriations
U.S. House of Representatives                          U.S. House of Representatives
Washington, DC 20515                                   Washington, DC 20515

Dear Mr. Chairman and Mr. Wolf:


This report responds to the explanatory statement accompanying the Supplemental
Appropriations Act of 2008 requiring the Office of Inspector General to report on a quarterly
basis the status of Census's 2010 operations. For the quarter ending March 2010, this report
covers the status of PBOCS and its relationship to the success of several Census operations,
especially NRFU; the status of the 2010 Census budget and spending of funds provided by the
American Recovery and Reinvestment Act of 2009; and an update on program-level risks to the
census, including the development of contingency plans and tests of physical security at key
Census facilities. In addition, we report on our visits to observe early field operations.

We will issue formal recommendations in a separate report to the Census Bureau on actions that
should be taken to address issues discussed in this report. We have sent identical letters to the
Chairman and the Ranking Member of the Senate Subcommittee on Commerce, Justice, Science
and Related Agencies.

If you have any questions, or if we can be of further assistance, please do not hesitate to contact
me at (202) 482-4661.

Sincerely,

Todd J. Zinser




Wade Green, Jr.
Deputy Inspector General (Acting)


Enclosure




                                                                                               A7'o;.-cOMMF.KCt
cc:   Representative Patrick J. Kennedy
      Representative Chaka Fattah
      Representative Adam Schiff
      Representative Michael Honda
      Representative C.A. "Dutch" Ruppersberger
      Representative Peter J. Visclosky
      Representative Jose E. Serrano
      Representative David R. Obey, Ex Officio
      Representative John Abney Culberson
      Representative Robert B. Aderholt
      Representative Jo Bonner
      Representative Jerry Lewis, Ex Officio
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington, D.C. 20230
                                            •BtTMOf*

May 5, 2010

The Honorable Barbara A. Mikulski                      The Honorable Richard C. Shelby
Chairwoman                                             Ranking Member
Subcommittee on Commerce, Justice,                     Subcommittee on Commerce, Justice,
  Science and Related Agencies                           Science and Related Agencies
Committee on Appropriations                            Committee on Appropriations
United States Senate                                   United States Senate
Washington, D.C. 20510                                 Washington, D.C. 20510

Dear Madam Chairwoman and Senator Shelby:

This report responds to the explanatory statement accompanying the Supplemental
Appropriations Act of 2008 requiring the Office of Inspector General to report on a quarterly
basis the status of Census's 2010 operations. For the quarter ending March 2010, this report
covers the status of PBOCS and its relationship to the success of several Census operations,
especially NRFU; the status of the 2010 Census budget and spending of funds provided by the
American Recovery and Reinvestment Act of 2009; and an update on program-level risks to the
census, including the development of contingency plans and tests of physical security at key
Census facilities. In addition, we report on our visits to observe early field operations.

We will issue formal recommendations in a separate report to the Census Bureau on actions that
should be taken to address issues discussed in this report. We have sent identical letters to the
Chairman and the Ranking Member of the House Subcommittee on Commerce, Justice, Science
and Related Agencies.

If you have any questions, or if we can be of further assistance, please do not hesitate to contact
me at (202) 482-4661.

Sincerely,

Todd J. Zinser


by:




Wade Green, Jr.
Deputy Inspector General (Acting)


Enclosure
cc:   Senator Daniel Inouye
      Senator Patrick Leahy
      Senator Herb Kohl
      Senator Byron Dorgan
      Senator Dianne Feinstein
      Senator Jack Reed
      Senator Frank Lautenberg
      Senator Ben Nelson
      Senator Mark Pryor
      Senator Judd Gregg
      Senator Mitch McConnell
      Senator Kay Bailey Hutchison
      Senator Lamar Alexander
      Senator George Voinovich
      Senator Lisa Murkowski
                                  Report In Brief
                                          U.S. Department of Commerce Office of Inspector General


Why We Did This Review                2010 Census: Quarterly Report to Congress
The Supplemental Appropria-           May 2010 (OIG–19791–4)
tions Act of 2008 gave the Census
Bureau an additional $210 million     What We Found
to help cover spiraling 2010
decennial costs stemming from         About 9,400 key operations and activities make up Census 2010. Such a complex, time-sensitive undertak-
the bureau’s problematic efforts to   ing requires that the Census Bureau operate efficiently and within budget.
automate major field operations,
                                      During the current reporting period, which covers 2010 Census activities from January through March
major flaws in its cost-estimating
                                      2010, we evaluated the bureau’s information systems, including its paper-based operations control system
methods, and other issues. The
                                      (PBOCS); observed several early field operations; and reviewed the bureau’s risk management procedures
Act’s explanatory statement
                                      and physical security at several Census locations. We found the following:
required the bureau to submit to
Congress a detailed plan and time-    •    Information Technology Systems. PBOCS poses the greatest risk to the success of NRFU, which is
line of decennial milestones and           Census’s largest field operation. The system’s performance is still unstable, and its ability to support
expenditures, as well as a quan-           NRFU’s volume is questionable. Census staff report frequent outages and reliability problems with
titative assessment of associated          PBOCS, and the increased need for monitoring workarounds to compensate for the system’s inad-
program risks, within 30 days.             equacies will be a substantial challenge for Census. While the Decennial Applicant, Personnel, and
                                           Payroll System’s performance appears to have improved with the addition of a hardware upgrade, the
OIG must provide quarterly
                                           system has experienced increased performance problems during early NRFU operations.
reports on the bureau’s progress
against this plan. This report’s      •    Enumeration Difficulties. Many Census enumerators have had difficulties with their assignments due
objective was to provide an update         to inaccurate, incomplete, or otherwise unusable maps. Overstaffing, inefficient coordination, incon-
of activities and operations, iden-        sistent adherence to procedures, and problems with information provided by partnership specialists
tify budget and spending issues,           have hindered several field operations.
and examine risks to the 2010              Also, the bureau’s current “verbatim” training method, wherein recently trained crew leaders read to
Census program.                            new employees word for word from a training manual on how to conduct a census operation, does not
                                           provide employees with the necessary information to accomplish the job.
                                           Finally, the public may not have been clearly informed about Census’s different collection methods.
Background                                 For example, based on their address type, some members of the public did not receive their census
                                           forms when others did, causing concern.
Since first conducted in 1790,
the constitutionally mandated         •    Budget and Costs. Census spending during this quarter has been under budget; however, with NRFU
decennial census’s field activities        commencing, costs can be expected to rise. The bureau expects to meet its requirement to spend all
have largely been paper based.             Recovery Act funding by the end of FY 2010. While Census releases a financial management report
The 2010 Census plan included              monthly, some of the report’s information is not transparent.
significant expansion of automa-      •    Risk Management and Security. Census’s Risk Review Board has identified and is tracking 24 pro-
tion, using handheld computers to          gram-level risks. The Board continues to meet monthly to review each risk, and is working to finalize
verify addresses (address canvass-         and implement contingency plans for the risks that need them.
ing), conduct in-person surveys
with households that did not return        In March, OIG staff tested the physical security at the three national data-capture centers through
their questionnaires (nonresponse          which completed census forms are processed. Our tests disclosed minor issues and we suggested
follow-up), and collect data from a        improvements at some locations, but we also discovered some significant vulnerabilities at other sites.
nationwide sample to evaluate the          We presented our findings to the Department’s Office of Security and Census, who informed us that
accuracy of the decennial count            they have improved security at these facilities.
(coverage measurement).               This report does not provide recommendations. We will forward the Census Bureau a separate document
Nonresponse Follow-up (NRFU)          that includes the following recommendations:
is the most expensive and labor-      •    Census should ensure clerical workarounds are being performed properly by having Census office
intensive operation of the decen-          managers, regional Census centers, and Census headquarters increase manual and automated checks
nial census. Increasing costs and          of workaround procedures as well as questionnaire control and tracking. Census should also take
automation problems prompted the           larger samples in already established quality-control procedures.
bureau’s decisions to abandon the
handheld computers for NRFU and       •    Census 2020 planning should include a thorough review of the decennial training process.
coverage measurement operations       •    For Census 2020, the bureau should better communicate the processes of its various enumeration
in favor of paper.                         activities to the public.
                                      •    The Census Bureau needs to improve the transparency of its budget process, especially the presenta-
                                           tion of surplus (or elimination of the surplus) as shown in its financial management reports.
                           OIG Quarterly Report to Congress, May 2010

                                                                 Contents
Introduction ..................................................................................................................................... 1
Chapter 1: Information Technology Systems Place Census Schedule at Risk ............................... 3
   Serious Problems with PBOCS Require Increased Monitoring of Workaround Procedures for
   NRFU .......................................................................................................................................... 3
   Status of Other Decennial Systems ............................................................................................. 9
   Conclusion ................................................................................................................................ 10
Chapter 2: Inspector General Field Observations Confirm Enumeration Difficulties ................. 11
   Observations of Census Bureau Operations Uncover Recurring Problems ............................ 11
Chapter 3: 2010 Census Costs Can Be Expected to Rise ............................................................. 19
   Census Spending During This Quarter Has Been Under Budget, but Future Operations Will
   Be More Costly ......................................................................................................................... 19
   Details of Census’s Revised NRFU Cost Estimate Remain Unchanged................................... 19
   Census Is on Track to Spend its Available Recovery Act Funding During the Remainder of this
   Fiscal Year ................................................................................................................................ 20
   Census Needs to Improve the Transparency of Its Financial Management Reports................ 21
Chapter 4: Update to Census’s Risk Management Activities and Security .................................. 23
   Risk Review Board Continues Monthly Reviews and Updates the Risk Register ..................... 23
   Finalized Contingency Plans Appear to Address Program Risks ............................................ 27
   OIG Tests Security at Key Census Facilities ............................................................................ 28
Appendix A: Objectives, Scope, and Methodology..................................................................... 29
                       OIG Quarterly Report to Congress, May 2010

                                                Introduction
The Supplemental Appropriations Act of 2008, enacted June 30, 2008, gave the U.S. Census
Bureau an additional $210 million to help cover spiraling 2010 Census costs. The Act’s
explanatory statement required Census to formulate a detailed plan encompassing a timeline of
decennial activities, cost estimates, and risk management activities. This information and
subsequent updates of Census’s progress are the measures that the Office of Inspector General
(OIG) reviews in these quarterly reports.

This report covers 2010 Census activities from January through March 2010, and includes more
current information when available. Our third quarterly report 1 covered 2010 Census activities
from October through December 2009, including the development and testing of the bureau’s
paper-based operations control system (PBOCS), an update of our field observations, analyses of
cost overruns with the address canvassing operation, an update on nonresponse follow-up
(NRFU) budgeting, and planned spending of funds for the 2010 Census from the American
Recovery and Reinvestment Act of 2009.

This report covers the status of PBOCS and its relationship to the success of several Census
operations, especially NRFU; the status of the 2010 Census budget and spending of Recovery
Act funds; and an update on program-level risks to the census, including the development of
contingency plans and tests of physical security at key Census facilities. In addition, we report
the findings of field visits by OIG personnel. Appendix A contains a complete discussion of our
objectives, scope, and methodology.

As a follow-up to our previous quarterly reports, we note that Census continues to implement
some of our recommendations. Specifically, we recommended a number of improvements for the
2010 and the 2020 Census. For the 2010 Census, we called on the bureau to improve its
reporting on the status of major activities. Based on our review of monthly status reports, we
concluded that the information contained in the reports is responsive to our recommendation.
However, in chapter 3 of this report, we discuss an additional issue regarding the transparency of
reporting in the financial management reports.

For the 2020 Census, we recommended integration of schedule and cost activities, earlier
development of the 2020 lifecycle, a transparent decision documentation strategy, and
completion of risk management activities prior to the start of 2020 operations. Census indicates
that it is working to implement these changes over the medium to long term, given its priority to
successfully complete the 2010 Census. We will continue to monitor these issues and receive
updates on the bureau's actions in response to these recommendations.

Additional recommendations were made to Census following our last quarterly report. The
bureau concurred with our recommendations and is working to resolve the issues we identified.
We consider two of the recommendations closed. These recommendations called on Census to
(1) ensure that senior executives with the authority to set priorities—such as reallocating
resources to where they are most needed, resolving conflicting priorities, and making major

1
    2010 Census: Quarterly Report to Congress, February 2010 (OIG-19791-3, February 16, 2010).



                                                        1
                  OIG Quarterly Report to Congress, May 2010

changes to the decennial schedule or plan—closely monitor PBOCS activities and act to
expeditiously reduce operational risk, and (2) streamline development and testing by further
reducing PBOCS’ capabilities to the essentials needed for the most important enumeration
operations.

The third and fourth recommendations required additional information from Census to be
considered resolved. We recommended that Census (3) focus on developing standardized
procedural workarounds for PBOCS’ capabilities that could not be implemented to support
operations, and (4) augment technical support staff and procedures to expeditiously resolve
problems in the field. From our field work, we found that the bureau has acted upon our third
recommendation; Census has developed standard workarounds and contingences for PBOCS’
shortcomings. However, the bureau’s action plan did not describe the process followed to decide
on and develop contingencies. Finally, the bureau did not address our last recommendation—the
steps it is taking to strengthen PBOCS technical support, especially for NRFU.




                                                2
                 OIG Quarterly Report to Congress, May 2010

                                Chapter 1:
        Information Technology Systems Place Census Schedule at Risk
The Census Bureau maintains a schedule of about 9,400 program- and project-level activities to
manage the 44 operations that make up the 2010 Census. The bureau’s operations during this
quarter included remote Alaska, update/leave (U/L), update/enumerate (U/E), enumeration at
transitory locations (ETL), and service-based enumeration (SBE). (See chapter 2 for
explanations of the Census operations that we observed.) In addition, Census staff continues
developing and testing PBOCS, which is being used to manage ongoing early enumeration
operations, and was deployed for the start of door-to-door NRFU enumeration, which began on
May 1. In NRFU, enumerators visit households that did not return census questionnaires. The
Census Bureau is responsible for visiting every nonresponding address.

Both we and the bureau regard PBOCS as a major risk to decennial operations, given the lack of
time available for its development and testing. During this period, in assessing the progress of
PBOCS development and its use in operations, we found serious problems:

   •   local Census office staff are encountering frequent PBOCS outages and reliability
       problems that are interfering with their work, and
   •   system performance still does not meet NRFU operational requirements.

Unless PBOCS stability improves substantially, the cost of the NRFU operation, its timely
completion, and the accuracy of its count are at risk.

Serious Problems with PBOCS Require Increased Monitoring of Workaround
Procedures for NRFU
Although the 2008 decision to conduct NRFU without handheld computers reduced overall risk
to the 2010 Census, the reformulated plan—including development of PBOCS—imposed an
enormous workload on the bureau that had to be completed in a short period of time and created
inherent risks of its own. In October 2009, the Census Bureau identified PBOCS as the system
most at risk of not being completed in time for decennial field operations. PBOCS is used to
manage data collection and quality control for 10 field enumeration operations, including the
largest: door-to-door NRFU. For NRFU, PBOCS is needed to manage over 600,000 enumerators
nationwide, who will visit an estimated 47 million housing units. PBOCS is used in every step of
the NRFU operation: for printing assignment materials, checking materials out to the field and
back into the office, managing individual cases, making quality control assignments, shipping
materials to data-capture centers, and providing reports for managing the operation. While
PBOCS is needed to support NRFU, it has not performed well in early enumeration operations.
If performance problems persist, they will put the successful completion of NRFU at risk.

Along with continued monitoring of development and operations of PBOCS and the Decennial
Applicant, Personnel, and Payroll Systems (DAPPS) during this quarter, we expanded our
monitoring activities to several other decennial systems, including the Decennial Response and
Integration System (DRIS) and the Matching Review and Coding System (MaRCS).


                                               3
                  OIG Quarterly Report to Congress, May 2010

PBOCS Development and Deployment. The development of PBOCS started late in the
decennial cycle, partially due to a late change in plans from using handheld computers to the use
of paper for collecting respondent data. With population counts for apportionment due to the
President by December 31, 2010, the schedule for decennial operations is fixed, forcing Census
to develop, test, and deploy increments of PBOCS’ functionality just before they are needed in
the field operations. The inevitable result of this “just-in-time” approach is that PBOCS’
functionality is incomplete and a litany of errors is being encountered as the system is employed
in actual operations. Census is working to repair the problems or develop workarounds for these
situations in what can be best described as a crisis management environment.

As shown in table 1, PBOCS is being deployed in phases. So far, it has been deployed for 8 of
10 operations, including NRFU for assignment preparation. Additional NRFU functionality was
deployed before May 1 to support the start of enumeration. Yet system development and testing
fell behind schedule, resulting in a 3-week delay in deploying PBOCS for NRFU. Census was
also behind in developing functionality for the two operations that follow NRFU—vacant/delete
check and field verification—but has simplified requirements and added contractor staff to the
development team to stay on schedule. However, the team will still have to resolve PBOCS’
defects in real time during the NRFU operation. Census estimated that local Census office staff
will encounter, and developers will have to resolve, defects at the same high rate in NRFU as in
earlier operations.

       Table 1. PBOCS Deployment and Field Operations Schedule
                         as of April 16, 2010
                                               Operation         Operation
 Operation                                       Start             End            Deployment
 Remote Alaska Enumeration                     January 25          April 30
 Group Quarters Advance Visit                  February 1         March 19
 Update/Leave                                    March 1            April 2        January 19
 Enumeration at Transitory Locations            March 19           April 12
 Remote Update/Enumerate                        March 22           June 9
 Update/Enumerate                               March 22           June 9         February 22
 Group Quarters Enumeration                     March 29           May 21           March 8
                                                         a
 Nonresponse Follow-up                           May 1             July 27          April 12b
 Vacant/Delete Check                             July 24          August 25          June 4
 Field Verification                             August 6        September 8          July 13
Source: U.S. Census Bureau
a
  Early NRFU operations started in mid-April to enumerate college students living off campus.
b
  Represents a 3-week delay from March 22. NRFU assignment preparation was deployed on April 12;
remaining NRFU functionality was deployed before May 1.




                                                 4
                       OIG Quarterly Report to Congress, May 2010

System Instability Is Already Affecting Operations. Local Census office staff are
encountering more reliability problems with PBOCS than any other system or information
technology (IT) resource deployed during early enumeration operations (see figure 1). The
biggest problem at present is that local Census office staff are often unable to use PBOCS
because of frequent outages, lasting from several hours to entire days. In the first 2 weeks of
April, backlogs of work grew as local offices lost almost 40 hours, the equivalent of one week of
8-hour shifts, to unexpected PBOCS outages during operational hours. These outages are in
addition to planned nightly system maintenance.


                                    Figure 1. Count of IT Help Desk
                                         Requests (Per Week)


  2000
                              Paper‐based Operations 
                              Control System (PBOCS)
  1500
                              Other IT Systems and 
                              Resources

  1000



   500



      0
                  16‐Jan

                           23‐Jan

                                      30‐Jan

                                               6‐Feb




                                                                                  6‐Mar

                                                                                          13‐Mar

                                                                                                   20‐Mar

                                                                                                            27‐Mar

                                                                                                                     3‐Apr
          9‐Jan




                                                       13‐Feb

                                                                20‐Feb

                                                                         27‐Feb




                                                                                                                             10‐Apr

Source: U.S. Census Bureau


These work backlogs must be processed once the system becomes available or defects are
resolved. To reduce backlogs, 14 of the 32 local offices we visited resorted to overtime, 6 offices
ran additional shifts, and 5 offices hired more staff. However, running additional shifts in the
evening and on weekends has been problematic because Census has reserved those times for
PBOCS maintenance to correct defects and deploy additional functionality and hardware. It is
likely that Census will continue to use overtime and additional shifts to handle the heavy NRFU
assignment workload. However, these plans will be disrupted by planned maintenance and likely
unexpected outages. Typically, planned maintenance outages are scheduled every evening
Tuesday through Saturday, and all day on Sundays.


                                                                5
                     OIG Quarterly Report to Congress, May 2010

We analyzed overtime data for all 494 local Census offices and found that office clerk overtime
increases the week after outages occur, as clerks work to reduce backlogs from the previous
week (See figure 2).


                Figure 2. Operational Outage Hoursa Compared
               Against Clerk Overtime in the Following Pay Period

        25


        20


        15


        10


         5


         0
             9‐Jan




                                                      6‐Feb


                                                                  13‐Feb


                                                                           20‐Feb


                                                                                    27‐Feb


                                                                                             6‐Mar
                      16‐Jan


                                    23‐Jan


                                             30‐Jan




                                                                                                     13‐Mar


                                                                                                              20‐Mar
                               percentage of clerks billing overtime in the following period
                               number of operational outage hours


Source: U.S. Census Bureau
a
  This chart shows that PBOCS outages in one week affect the amount of overtime billed in the following
week. The dates in the chart correspond to the dates of outages as shown by the solid line. The
increases in overtime billing as shown by the dashed lines do not correspond to dates in the chart, but
occur in the week following the corresponding outages.

Clerical overtime costs incurred by local Census offices between January 3 and March 27 totaled
$1.6 million. However, clerk overtime alone does not capture the full potential labor cost of
PBOCS outages and defects. Additional clerks were hired earlier than planned with the
expectation that their tenure would not be extended. The cost of this action will be known later in
NRFU. The scale of NRFU is much larger in comparison with early enumeration operations
(four times as many cases as update/leave, the next largest operation). With this larger workload
for NRFU, if backlogs and outages continue, overtime and additional staff costs could increase
considerably. Finally, the stresses of operating in this type of an environment could diminish
staff retention.




                                                              6
                     OIG Quarterly Report to Congress, May 2010

Even when the system is available, local Census offices frequently encounter PBOCS defects
such as inaccurate management reports and an inability to check in completed questionnaires,
two of the top five reported problems in April (see figure 3). When, for example, performance
and progress reports are inaccurate or unavailable, managers do not have the current data they
need to promptly reassign resources to areas that are falling behind schedule, or identify
enumerators who are not performing adequately.

When PBOCS does not allow office staff to check in completed work, paper questionnaires have
to be stored until the problem is resolved. In this case, backlogs develop—and unless paper
records are kept, managers will not have current information about operational progress. Even
more of a concern is that questionnaires can be misplaced, for example, by storing them with
questionnaires that have already been checked in and are waiting to be shipped to the data-
capture centers. If questionnaires are not checked into PBOCS, the persons identified in the
questionnaires may not be counted. A workaround was implemented that eliminated the check-in
of some U/E forms due to PBOCS availability issues. In addition, early NRFU operations, which
started in mid-April to enumerate college students living off-campus, will be exposed to this
same risk because the NRFU check-in function was not yet available.


 
               Figure 3. Top Five PBOCS Help Desk Ticket Categories
                                for April 1 – 14, 2010
 

                                                                  Check In 
                                                                Questionnaires
                                                                    20%


                                                                     Access
                             Other        Top 5                       15%
                              40%          60%

                                                                    Reports
                                                                     11%
                                                                Shipping Labels
                                                                      7%
                                                                 Check In AAsa
                                                                      7%
 
Source: U.S. Census Bureau 
a 
    AAs are assignment areas. They are the small geographic areas that are the basic units of work
    assigned to enumerators. 




                                                     7
                  OIG Quarterly Report to Congress, May 2010

Census Is Creating Workarounds to Address PBOCS’ Problems. Census headquarters is
responsible for notifying local Census offices of IT or procedural problems and specifying
workarounds to overcome them. Typically, headquarters conveys this information by sending e-
mail notifications to the 12 regional Census centers, which then inform the local Census offices
in their respective regions.

Workarounds vary. For example, when PBOCS is unavailable, local office staff keep paper
records of enumerator assignments and progress of operations. They then either send the written
records to or call regional offices to inform them about their progress. Once the system is
available, office staff record the data a second time as they transfer information from paper to
PBOCS. Census has also instituted or planned workarounds to PBOCS’ performance problems,
such as staggering the use of the system according to priorities and using other decennial systems
to print materials.

Census also had to devise workarounds for exchange of data between PBOCS and other systems.
For instance, Census headquarters and regional offices have not been able to use the cost and
progress system to monitor operations at the national, regional, and local office levels because
the interface with PBOCS has not been completed. To compensate, simple files of progress data
are periodically extracted from PBOCS and imported into the cost and progress system. Another
interface problem arose between PBOCS and the National Processing Center in Jeffersonville,
Indiana. PBOCS was unable to receive notification that material sent from local Census offices
had been received by the processing center. As a workaround, the processing center sent long
lists of assignment area identification numbers to local offices, where staff manually checked the
lists for missing identification numbers.

System Performance Is Still Not Meeting Operational Requirements. Census has pursued
solutions to PBOCS’ performance and functional problems through the creation of the 2010
Census Application Readiness and Infrastructure Stability (ARIS) group, made up of operational
managers and engineers supported by product vendors. The group meets daily and is working
around the clock to monitor and guide efforts to reduce defects and improve the system. Yet
while this group and the PBOCS team have been working, new problems continue to
accumulate.

The ARIS group recently oversaw a measure to improve the performance of the system: the
addition of about $6 million worth of hardware to double the capacity of the operational, test,
and backup environments. However, PBOCS is still not meeting NRFU operational
requirements. Census estimated that for NRFU, the system will have to support 7,000 users
system-wide, which is about 14 users per local Census office. PBOCS is having performance
problems handling as few as 1,700 concurrent users, or 25 percent of the required peak load. The
PBOCS team continues to repair and tune software to improve PBOCS’ performance.

NRFU Assignment Preparation Risks. Due to PBOCS’ instability, Census had to divert
PBOCS staff and computing resources to develop a major contingency to avoid the disruption of
the very challenging and important task of generating and printing material used to prepare
assignments for NRFU enumerators.




                                                8
                   OIG Quarterly Report to Congress, May 2010

Quite simply, without assignment materials NRFU grinds to a halt. The process starts by PBOCS
ingesting records for an estimated 47 million addresses that make up the initial NRFU workload.
Originally, the next step was to have each local Census office use PBOCS to generate and print
the assignment preparation material. However, to better control PBOCS computer resources,
Census devised a contingency plan under which headquarters will generate and store the material
in a printable format for all local offices, and then each office will only have to print the material.

The time frame needed for ingesting, generating, and then printing was short—18 days—with
very little margin for error. The process started April 12 and needed to be completed by April 30
so that enumerators would have their assignments and questionnaires by the first day of NRFU
on May 1. However, PBOCS ran into trouble at the start of the process. To make sure that the
material was ready in time, Census reserved the use of PBOCS for 6 days (April 14 to 19)
exclusively for ingest/generate, which forced local Census offices essentially to go to paper-only
management of operations. Census sent out numerous workaround instructions for local offices
to follow during these 6 days in support of their ongoing operations. Concerns about PBOCS’
capabilities were so great that Census again diverted resources to develop an additional
contingency plan that allowed local offices to print the assignment materials on another system.
By employing these contingencies, Census was able to print the NRFU preparation material on
time.

As part of the ingest/generate process, PBOCS also removes from the initial NRFU workload the
addresses of households whose census forms were received after a certain cut-off date (April 7).
If functioning properly, PBOCS removes these “late mail returns” from assignment lists before
they are printed and distributed to enumerators. Afterwards, starting on April 26, local Census
office staff began using PBOCS to print a listing of newly received late mail returns; this staff
will manually remove these addresses from the paper assignment lists. The bureau expected the
automated removal of late mail returns to yield substantial costs savings to field operations.
Manual execution of these operations increases the cost and potential for inaccurate changes to
the assignment area address registers.

Status of Other Decennial Systems

The Decennial Applicant, Personnel, and Payroll System. DAPPS supports the processing
and tracking of job applications, recruiting reports, and payroll for the large number of temporary
workers employed for decennial operations. In our last quarterly report, we noted that
performance testing of DAPPS indicated that the system would not be able to handle the
expected NRFU workloads. As operations progressed during February and early March, the
DAPPS application experienced several outages and very slow performance. The system’s
processing resources were continually running at about 80-100 percent of total capacity, and
users were often unable to log on. By March 22, the ARIS group supervised the successful
deployment of about $5 million worth of hardware to replace the previous system resources.

The DAPPS hardware upgrade significantly improved DAPPS performance. As an example,
response times for the most complex reports requested by users improved by 90 percent; reduced
from 20 minutes to 2 minutes. In early April, ARIS engineers also successfully conducted a



                                                  9
                  OIG Quarterly Report to Congress, May 2010

continuity of operations test to determine if the system could recover from catastrophic failure.
They were able to completely restore the system within 2 hours. While DAPPS has shown
improvement, help desk complaints indicate the system has experienced increased performance
problems during early NRFU operations and it is uncertain how well it will function under peak
load.

The Decennial Response and Integration Systems. DRIS has two functions: (1) DRIS call
centers provide telephone questionnaire assistance to the public and support the coverage follow-
up operation to improve the accuracy of data collected during enumeration, and (2) DRIS data-
capture centers extract data entered by respondents on mailed-back census questionnaires.
According to Census data, as of April 23, the 11 DRIS call centers across the United States had
handled 4.1 million calls within specified performance requirements. Also according to Census,
the three data-capture centers—located in Baltimore; Jeffersonville, Indiana; and Phoenix—met
two key respondent questionnaire processing requirements for the NRFU operation: (1) on April
6, all questionnaires received except for the last 24 hours were checked in, and (2) on April 23,
all priority questionnaires (those from multi-units) received by April 21 were scanned. As of
April 23, 90 million forms had been checked in and 72 million had been scanned.

The Matching Review and Coding System. MaRCS is used to improve the overall quality of
door-to-door enumerations. PBOCS selects a random set of households to re-interview after the
original U/E or NRFU interview. MaRCS compares the original and re-interview responses and
flags those with discrepancies for further investigation. MaRCS is in production and is
supporting U/E.

Functional and load testing results indicate the system is ready for NRFU. The MaRCS interface
with PBOCS was an early problem because the PBOCS functionality was incomplete. With
problems with the interface resolved, the biggest risk to MaRCS continues to be PBOCS outages
and bugs that prevent MaRCS from communicating with PBOCS.

Conclusion

PBOCS presents a risk to the cost of the NRFU operation, its timely completion, and the
accuracy of the population count. While PBOCS must support NRFU—the largest field
operation—it has exhibited continual problems, and its ability to support NRFU’s volume is far
from settled. The stress of the workload and workarounds is a substantial challenge for PBOCS
and the Census field staff. These stresses could result in staff retention problems.

Accordingly, in a separate memorandum to the Census Bureau, we are recommending that the
Director ensure that clerical workarounds are being performed properly by having Census office
managers, regional Census centers, and Census headquarters (1) increase manual and automated
checks of the quality of workaround procedures and of questionnaire control and tracking during
the operation, and (2) take larger samples in already established quality-control procedures.




                                                10
                                  OIG Quarterly Report to Congress, May 2010

                                Chapter 2:
   Inspector General Field Observations Confirm Enumeration Difficulties

Observations of Census Bureau Operations Uncover Recurring Problems
The Census Bureau’s 44 decennial operations for 2010 span several years and entail providing
support, establishing where to count, collecting and integrating respondent information,
providing results, measuring coverage, and performing analysis and research for the 2020
Census. This year, we are reviewing firsthand aspects of many of these operations and have
deployed substantial numbers of staff to observe Census work in the field. Figure 5 shows the
extent of our oversight during selected early Census operations. The figure shows the number of
OIG staff conducting specific field observations, providing office infrastructure (managerial,
technical, and administrative support), and carrying out OIG evaluation work (contract
evaluations, information technology capacity and capability assessments, physical and IT
security assessments, and the continuation of work supporting field observations) from OIG
headquarters and regions. Figure 6 shows the areas of the country where we conducted
observations during this quarter.


                                   Figure 5. OIG Staff for Decennial Census Operations
                        100

                         90

                         80

                         70
   Staff in the Field




                         60

                         50

                         40

                         30

                         20

                         10

                          0
                          1-Mar           8-Mar         15-Mar          22-Mar          29-Mar

                              Office Infrastructure               OIG Evaluation Work
                              Update Leave                        Update Enumerate
                              Enumeration at Transitory Locations Service Based Enumeration

 Source: OIG




                                                             11
                     OIG Quarterly Report to Congress, May 2010

             Figure 6: OIG Observation Areas, March 1—April 9, 2010




 Source: OIG

Our observations of Census operations during this quarter included U/L, U/E, ETL, and SBE,
which is part of group quarters enumeration (GQE). Table 2 summarizes by operation some of
the problems noted at the sites we visited. A more detailed discussion of each operation is also
included in this section.



              Table 2: Problems Noted During OIG Field Observations
                                 # of                Problem Areas (number of LCOs)
 Census           Observation   LCOsa
 Operation        Dates         Visited   PBOCS       DAPPS     Maps    Training    Procedures
 U/L              3/1-3/12            5          2          2       2           0                  3
 U/E              3/15-4/16           9          5          3       7           1                  7
 ETL              3/22-4/2           12        11           6      11           1              10
 SBE              3/28-4/1           13        10           9     N/A           2               8
 Source: OIG
 a
     Local Census offices




                                                12
                  OIG Quarterly Report to Congress, May 2010

Update/Leave. U/L is the operation in which census questionnaires are delivered to those areas
of the United States in which the intended housing units would not be reached through normal
mail delivery. During U/L, enumerators travel around assigned areas and conduct interviews to
update residential addresses—including making corrections, adding and deleting addresses, and
updating Census maps as necessary. At each address, enumerators will leave a 2010 Census
questionnaire for an occupant to complete and mail back to the Census Bureau. The operation
began on March 1, and accounted for about 11 million of the more than 130 million addresses in
the Census Master Address File. We deployed 10 staff members in five cities to observe this
operation, covering four different Census regions: Southaven, Mississippi, and Galveston, Texas
(Dallas region); Provo, Utah (Denver region); Chicago, Illinois (Chicago region); and Ft. Myers,
Florida (Atlanta region). According to Census’s weekly updates, as of April 5, U/L production
was 100 percent complete, with $105 million (79 percent) of its $133.6 million budget spent.
However, as a result of PBOCS’ problems, we could not independently verify these figures.

OIG staff observed 15 different U/L enumerators cover more than 325 miles to count over
300 living quarters. Enumerators generally followed Census procedures while canvassing and
were able to update and correct Census maps and lists. Enumerators in two assignment areas,
however (Fort Myers and Galveston), experienced problems completing their assignments
because the maps they were using to locate housing units had erroneous data that should have
been corrected during the spring 2009 address canvassing. Specifically, maps were missing
existing housing units and roads, as well as other incorrectly located map spots. In Galveston, a
map showed several housing units on a street that had been destroyed during Hurricane Ike in
2005. Also, in Fort Myers, we observed one U/L enumerator repair Census map errors that had
not been corrected after she herself had canvassed the same block during address canvassing; she
had, at that time, made the necessary corrections.

During U/L, local Census office managers reported that PBOCS was easy to learn and use, and
Census headquarters and regional Census centers often responded quickly to outages and other
maintenance problems. According to Census field personnel, PBOCS outages affected efficiency
in the local Census offices, but they generally did not have a correlated effect on field progress in
these smaller operations. PBOCS inefficiencies do, however, affect the cost of operations.
Specifically, local Census offices are concerned about usage restrictions and the lack of real-time
updates for NRFU. While the offices reported that they understand the need for some
workarounds, managers and clerks would like to see PBOCS work more quickly and efficiently,
break down far less often, support more users, and provide more up-to-date data.

Update/Enumerate. The U/E operation entails a method of data collection conducted in
communities in which many housing units lack house numbers and street names for mailing
addresses. This method is used on American Indian reservations, in rural Spanish-speaking
communities, and in resort areas with high concentrations of seasonally vacant living quarters.
Similar to U/L, the U/E field staff canvass assignment areas to update residential addresses and
maps. In addition, staff enumerate the population. U/E began on March 22, and is scheduled to
continue through June 9. According to Census, as of April 12, the U/E operation had completed
42 percent of its assignment areas for production and 4 percent for quality control, and has
expended $33 million of its $124 million budget (26 percent). Again, however, as a result of
PBOCS’ problems, we could not independently verify these figures.


                                                 13
                  OIG Quarterly Report to Congress, May 2010

We sent 18 staff members to eight local Census offices in Arizona, Maine, South Dakota, Texas,
and Wisconsin to observe the U/E operation. We observed 48 different enumerators complete
203 enumerations. We also observed 312 enumerations that could not be completed due to
people not being at home during workday hours, staff encountering locked gates, or in a couple
of instances, people not wanting to provide information.

Inaccurate Census maps were the main problem in six of the eight local Census offices. Map
issues observed included the following:

   •   Map spots (housing units) were not correctly located on the maps.
   •   Maps did not contain all housing units in the block, resulting in many add-ins by the
       enumerators.
   •   Maps had map spots for housing units that were no longer there, resulting in many
       deletions.
   •   One of the maps was incorrectly oriented for direction and was deemed unusable.
   •   At one location, some Census maps were deemed to be unusable by the enumerators and
       local site maps were used instead.
We are planning to return to some local Census offices in early May to assess the progress of the
operation and its conformity to the quality control procedures. During our initial visits, we found
that the operation faced possible delays. Due to problems retaining enumerators, some crew
leader districts continued to conduct enumerator replacement training in an extended effort to
build the staff needed to meet the schedule. Along with map problems, enumeration efforts were
hindered by necessary, but inherently difficult, travel—lengthy trips over rough and unpaved
roads to remote housing units, only to find the residents absent or reluctant to respond. In
addition, one local Census office was experiencing high turnover of key managers. As deadlines
approach, Census needs to be sure, in the face of all these difficulties, that quality is not short
changed.

Enumeration at Transitory Locations. ETL is designed to provide coverage for locations in
which people live in nontraditional housing that is transient in nature. Most census
questionnaires are mailed, or hand-delivered by Census employees, to known addresses. For this
operation, Census staff interview people at the transitory locations and complete questionnaires
for those persons who have no other usual residence most of the time. For numerous reasons,
some people no longer maintain a traditional residence (e.g., house, apartment) and live in
carnivals, motorized recreational vehicles, trailers that are pulled by a car or truck, boats in
marinas, or any other type of movable housing, including tents. Also, this operation counts
people who live in hotels or motels on a transitory basis because they have no other residence.
ETL began on March 19, and was scheduled to continue through April 12.

We sent two OIG staff members to each of the 12 Census regions to observe ETL. We observed
multiple enumerators driving long distances, often without carpooling, to enumerate few or no
occupied sites. Many of the local Census offices had finished or almost finished this operation by
the end of the first full week (March 26), almost 3 weeks early. The remaining local Census
offices were mostly complete just one week later. This quick completion of ETL indicates that


                                                14
                  OIG Quarterly Report to Congress, May 2010

the local Census offices hired more people than necessary to conduct the operation in the
scheduled 4-week period, resulting in excess salary payments to those additional people who
attended the 3 days of paid classroom training. This may have occurred for two reasons: (1) the
bureau continues the practice of “frontloading”—hiring and training more decennial field
operations enumerators than needed to compensate for no-shows, dropouts, and expected
turnover. As a result, field offices initially deploy all employees, without a sufficient workload;
(2) the initial screening information collected for each transitory location was often incorrect or
missing. Consequently, crew leaders could not adequately estimate the number of Census staff
needed to enumerate a transitory location, which increased the cost of operations.

OIG observers noted that ETL enumerators were not using Census maps in accordance with the
directions provided in the 2010 Census ETL enumerator manual, i.e., updating the Census block
maps. In some instances, only the transitory location site maps were used as the primary tool, not
the official Census maps. The site maps were then used to update the Census maps as an office
procedure. As a result, map spots may not have been placed in correct locations. In addition, OIG
observers noted that in several cold-climate areas (e.g., Augusta, Maine; Morgantown, West
Virginia; and Asheville, North Carolina), many of the listed campgrounds or marinas could not
be enumerated because they were not open for business during the dates of the operation.

Finally, the ETL operation appears to carry a high monetary cost, given the low number of
questionnaires collected. Only 118,459 questionnaires were collected during the operation,
according to the regional Census center progress report dated April 14. According to Census’s
status report, as of April 12 it had enumerated 46,300 transitory locations (96 percent) and
expended $12.5 million (68 percent) of its $18.4 million budget amount for this operation. As a
result of PBOCS’ problems, we could not independently verify these figures. However, based on
this data, Census spent approximately $105 per questionnaire collected in the ETL operation. By
comparison, Census estimated the cost per completed questionnaire for mailout/mailback forms
to be $0.42, and for NRFU to be $57.08.

Service-based Enumeration. There are significant logistical challenges and unique enumeration
procedures associated with SBE. This operation, which is part of GQE, provides homeless
individuals with an opportunity to be counted. Census enumerators visited homeless shelters,
mobile food vans, and targeted non-sheltered outdoor locations (TNSOL) from March 29 to
March 31. Local Census offices communicated with homeless shelters and food kitchens in
advance to determine how many enumerators would be needed at each site and when the
enumerators should visit. In coordination with the Census Bureau’s partnership program, the
local Census offices also had to decide which outdoor sites to visit on March 31. According to
Census, as of April 12 it had spent $45 million of the $87 million (52 percent) budgeted for the
GQE operation. Again, PBOCS’ problems prevented us from independently verifying these
figures.

Preliminary analysis of our observations indicates mixed results regarding the Census Bureau’s
ability to meet the logistical challenges and consistently follow the unique SBE procedures.
Unique to this operation, enumerators were allowed to create an individual Census record based
on their direct observation of the race, gender, and ethnicity of the respondent. Enumerators were
not required to obtain names or dates of birth from such respondents. Additionally, the Census


                                                 15
                  OIG Quarterly Report to Congress, May 2010

Bureau’s GQE manual indicates that enumerators should recount any individual who asserts that
he/she has already been counted.

We identified concerns with inefficient staffing, coordination with partnership and service sites,
selection of TNSOL sites, and inconsistent handling of individuals who either (1) stated that they
had already been counted, or (2) stated that they had an address. We observed 83
enumerations—at shelters, soup kitchens, food vans, and TNSOL sites—carried out by 13 local
offices. In over half of our observations, enumerators were inconsistent in deciding whether or
not to recount individuals who stated that they had already been counted. We also identified
inconsistent practices when respondents indicated that they had an actual residential address. In
particular, some of these individuals were counted during SBE, while other individuals were told
that they could not be counted because they were not homeless. The enumerators’ natural
inclination to avoid duplication often contradicted the procedures in the Census GQE manual.

Lack of coordination was also an issue in some of our observations. Specifically, enumerators
were sent to shelters, soup kitchens, and mobile food vans at inopportune times for enumerating
the populations served by those organizations. In such cases, teams needed to wait up to several
hours before enumeration could begin. Additionally, a majority of local Census offices expressed
frustration to us about the partnership program’s selection of specific outdoor locations for
enumeration. They commented that the partnership staff missed deadlines and provided poor-
quality site lists. To deal with this challenge, these local Census offices used their own staff
members and incurred additional labor costs to identify TNSOL sites for enumeration. We also
found many enumerator teams to be unnecessarily large−an average ratio of one enumerator for
just seven homeless respondents for non-TNSOL operations. As a result, we observed significant
periods of inactivity at these locations, which unnecessarily increased the cost of the SBE
operation.

In most cases, we observed competent, adequately trained, professional, and respectful SBE
enumerators and crew leaders, but this did not reduce the potential risk of duplicate records or
negate poor site selection, scheduling, and coordination issues. When deviating from established
procedures, enumerators appeared to follow a more common-sense approach to reducing the risk
of duplicate records. However, this risk remains great for individual records created during SBE.
We have not reviewed the process Census will use to remove duplicate records for enumerations
that were simply based on direct observation of race, gender, age, or ethnicity, and in which no
birth date or name was provided. Given the inherent challenges in the SBE operation, in the 2020
Census the bureau should devote more time to advance coordination with SBE sites, establish
procedures to mitigate the risk of duplicate records, and institute a more effective process for
selecting and confirming TNSOL sites. Such measures would aid efficiency, decrease cost,
and—most importantly—increase the accuracy of the census process.

Training Methods for Census Operations. As in the past four decennial censuses, the bureau
uses a “verbatim” training methodology whereby recently trained crew leaders read to trainees
word for word from a manual how to conduct a census operation. Class size ranges from 6 to 20
enumerators, and the trainer is typically the leader who will manage the “crew” of enumerators.
Our observations of the U/L, ETL, and U/E training have shown that the quality of the training
varies, depending on the crew leader’s reading and speaking ability, and suffers because of the


                                               16
                     OIG Quarterly Report to Congress, May 2010

numerous errors contained in the manuals and the one-size-fits-all approach, which does not
provide employees with the necessary information to accomplish the job.

These observations parallel similar findings in OIG reports on Census’s 2004 2 and 2006 3 mid-
decade tests. We urged the bureau to incorporate a mix of DVD, VCR, and Internet media for
homework assignments and other portions of the class; use visual aids to supplement the
verbatim training; and incorporate role playing, such as practice interviews to simulate hands-on
experience performing their duties. Census told us that it lacked resources, both financial and
staff, to modify the 2010 training, although it appears additional role playing has been added.
However, even that role playing tends to be verbatim script reading and does not cover the often
difficult situations encountered during census operations or the challenges unique to a specific
geography or location. Census 2020 planning should undertake a thorough review of the
decennial training process.

Questionnaire Assistance Centers (QACs) and Be Counted (BC) Sites. While conducting
field observations and office interviews, OIG staff also visited a small number of QACs and BC
sites. One common question Census staffers receive from the community and the media is,
“Where is my census form?” Similarly, one individual who contacted the OIG Office of
Investigations hotline 4 expressed concern because his/her community of 88 homes had not
received its census forms, while other neighborhoods had received three forms. This person
stated that the Census advertisements explain the importance of promptly completing and
returning the census questionnaire; the caller wondered whether the situation might point to
inefficiency, waste, and incompetence. This complaint indicated that some of the public may not
have been clearly informed about Census’s varying canvassing methods. For example, based on
address type, some members of the public would receive their census forms during the U/L, U/E,
or ETL operations instead of during the mail-out/mail-back operation.

Another sign of missed opportunities for Census to communicate its mission is that it did not
make available Be Counted forms at various public-awareness events. Be Counted forms
provided the opportunity for households who did not receive a questionnaire in the mail to
participate in the census process. The forms were available for pick-up at Be Counted sites such
as public libraries. Census Bureau management argued against making these forms available at
public-awareness events because doing so increased the possibility of duplicate enumerations
and the potential for extra/unnecessary work during NRFU or field verification. Nevertheless,
this approach resulted in the public being unaware of Census’s alternate methods for information
collection. Furthermore, when individuals sought Census information elsewhere, such as the
National Census Assistance hotline, callers before April 12 received automated, largely

2
  Improving Our Measure of America: What the 2004 Census Test Can Teach Us in Planning for the 2010
  Decennial Census, Office of Inspector General (OIG-16949-1, March 2004).
3
  Enumerating Group Quarters Continues to Pose Challenges, Office of Inspector General (IPE-18046-09-06,
  September 2006).
4
  The OIG Office of Investigations receives Department of Commerce-related allegations of waste, fraud, and abuse,
  as well as other complaints, from U.S. residents and government employees, through a confidential
  e-mail/telephone “hotline.”For each complaint received, OIG decides whether to forward to the relevant Commerce
  agency and require a timely response, forward without requiring a response, or retain within OIG for further
  investigative or audit inquiry.



                                                       17
                  OIG Quarterly Report to Congress, May 2010

unhelpful menu options that did not clarify why callers had not received forms and did not
provide details on alternate methods for participation in the enumeration process. On April 7, the
Census Bureau’s Director posted a blog entry explaining why certain populations had not yet
received forms and encouraging readers to call the telephone questionnaire assistance line
starting April 12. While this helped users of 2010.census.gov identify where to find census
forms, those who did not access Census online were less likely to receive the message that
Census headquarters, QACs, and BC sites worked hard to deliver. Census should address this
issue to improve its communications with the public for the 2020 Census.




                                                18
                  OIG Quarterly Report to Congress, May 2010

                                     Chapter 3:
                      2010 Census Costs Can Be Expected to Rise
The 2010 Census is currently estimated to cost approximately $14.7 billion, reflecting an
increase of $3.2 billion over the last 2 years. For this fiscal year, spending on the 2010 Census is
projected to total $7.4 billion. From January through March 2010, the bureau spent less money
than it had budgeted due to salary costs that were not incurred and obligations that were delayed.
Also, Census has spent more than half of the Recovery Act funds available for this fiscal year.
Census will experience an increase in cost over the coming months as obligations for the NRFU
operation are realized.


Census Spending During This Quarter Has Been Under Budget, but Future
Operations Will Be More Costly
The Census Bureau monitors the status of budget and accounting for the 2010 decennial census
on a monthly basis. The results are contained in several documents, including the monthly status
reports sent to the Office of Management and Budget, internal financial management reports
(FMRs), and internal cost variance analyses. Cumulative planned spending and actual
expenditures are presented monthly. Individual categories may be over or under budget for the
month, which when combined show the overall budget variance for the 2010 Census. These
major areas, in turn, contain nearly 300 individual projects, each with a project manager and
numerous cost categories.

According to Census FMRs, it spent approximately 7 percent less than planned for the 6-month
period ending March 31, 2010 (see table 3). Table 3 also shows a variance ranging from 7
percent over budget to 48 percent under budget when comparing the monthly actual spending to
the monthly operating budget. Monthly status reports for January through March show that
expenditures were lower in nearly all budget frameworks as a result of salaries that were not
incurred, obligations that were delayed, and delays in hiring local Census office staff, among
other reasons. We will continue to monitor spending to assess whether delayed obligations have
any impact on program activities during subsequent months.


Details of Census’s Revised NRFU Cost Estimate Remain Unchanged
The budget for the operation was projected at almost $3 billion with an additional $411 million
in contingency funds to cover any cost overruns. In our last quarterly report we stated that
Census budget staff, with the help of a consultant, analyzed the NRFU budget estimate to
determine whether the original estimate was sufficient. By developing over 1,000 likely cost
estimates using a number of factors, the bureau reached what it considers a reasonable NRFU
cost estimate of $2.33 billion. This figure is within the analysis’s distribution of costs, which
ranges from $1.94 billion to $2.83 billion. The range was necessary because of uncertainty about
two major cost drivers−mail response and worker productivity. To these drivers we would also
add the unknown impact on operations of a PBOCS with reduced functionality and performance.
However, the bureau’s budget for NRFU remains unchanged at $2.83 billion.


                                                 19
                     OIG Quarterly Report to Congress, May 2010


            Table 3. Comparison of 2010 Annual Plan and Cumulative
                       Planned to Actual Costs for FY 2010
                                                  ($ in millions)

                                                    Monthly
                                                   Variance:
                          Monthly                   % Under     Cumulative     Cumulative                         %
              Monthly      Actual      Monthly        (Over)       Planned        Actual       Cumulative      Under
Month           Plana    Spending     Variance       Budget      Spendingb      Spending         Variance     Budget
October           $465         $460            $5         1%           $465         $460                $5         1%
November           534          366          168         31%            924           825               99        11%
December           315          164          151         48%           1164           989              175        15%
January            358          293            65        18%           1469         1282               187        13%
February           322          258            64        20%           1681         1540               141         8%
March              540          579          (39)        -7%           2285         2119               166         7%
Source: U.S. Census Bureau Financial Management Reports
a
  Annual operating budget as presented in the October 2009 Financial Management Report
b
  As revised between November 2009 and March 2010 and reported in the Monthly Status Report




Census Is on Track to Spend its Available Recovery Act Funding During the
Remainder of this Fiscal Year
The Recovery Act provided the Census Bureau with $1 billion to improve communications and
outreach ($250 million) and to fund early operations ($750 million) for the 2010 census. Figure 7
shows the level of monthly planned spending of Census’s remaining Recovery Act funds for the
rest of FY 2010 as revised by Census in December 2009 and March 2010, as well as obligations
incurred January through March 2010.

According to its March 2010 financial management report, the bureau has obligated $515 million
of its Recovery Act funding through the first 6 months of this fiscal year, which is slightly less
than half of the $900 million that was available. During this quarter, Recovery Act funding was
used to fund partnership staffing, the advertising contract, early Census operations, including
U/L, U/E, GQE operations, and the coverage follow-up contract. 5 The bureau currently plans to
spend an additional $322 million over the next quarter and expects its Recovery Act funding to
last through this fiscal year.




5
  Coverage follow-up aims to improve the coverage of the 2010 Census by using temporary employees to conduct
telephone interviews with large households and housing where the reported household size was different than the
number of persons for which data were provided on completed questionnaires.



                                                       20
                  OIG Quarterly Report to Congress, May 2010

        Figure 7. Recovery Act Funds—Planned vs. Actual Spending,
                                  FY 2010
                                      (in millions of dollars)

  300


  250


  200


  150


  100


   50


    0




          Planned Spending as of December 2009             Planned Spending as of March 2010
          Actual Obligations and Expenses

Source: U.S. Census Bureau


Census Needs to Improve the Transparency of Its Financial Management
Reports

The Census Bureau issues an FMR monthly. The FMRs are the basis for portions of the monthly
status reports that are provided to the Office of Management and Budget. We expressed concerns
with these reports in the August 2009 First Quarterly Report to Congress. In that report, we
stated that from an oversight perspective, it is not clear why or when the bureau has determined
that it must draw from its contingency reserve rather than realigning its operating plan to draw
money from operations with budget under runs. We recommended that Census strengthen the
process for preparing and reviewing monthly status reports for the remainder of the 2010 Census.
We have a similar concern with the reporting of surpluses.

The FMR shows the amount Census plans to spend for all Census operations and activities, the
amount actually expended, and the variance between the planned and actual spending by month
for the current fiscal year. Our analysis of the October 2009–March 2010 FMRs found that
Census adjusts the annual plan figures for previous months. According to bureau officials, only
the month in which the FMR is issued shows that month’s performance. Surplus funds are often
re-planned for another purpose in a later month and are no longer visible in subsequent reports.
Census officials stated that the re-planned funds may still be in the same project in a later month


                                                 21
                 OIG Quarterly Report to Congress, May 2010

or moved to a new project/division based on updated program plans, spending requirements, and
expected operational needs. Table 4 shows the month of October 2009, moving from a surplus of
$5.7 million in the October 2009 FMR, to a deficit of $151.6 million in March 2010 FMR. In
subsequent FMRs it is impossible to identify the project/division to which the $5.7 million
surplus was assigned.


   Table 4. Analysis of Census FMRs for the Month of October 2009
                                         ($ in millions)
Data for October
2009 as reported in      Oct-09      Nov-09         Dec-09      Jan-10      Feb-10      Mar-10
FMR                        FMR         FMR            FMR          FMR         FMR         FMR
Annual Plan to Date      $465.2      $406.4         $360.3      $347.5      $319.6      $307.9
Expended Obligated        459.5       459.5          459.5        459.5       459.5       459.5
Variance to date            5.7       (53.1)         (99.2)     (112.0)     (139.9)     (151.6)
Source: U.S. Census Bureau


Therefore, the claim that some activities are within, above, or below budget cannot always be
determined in the FMRs after the month of a specific FMR’s release. In the subsequent month,
surpluses may be moved (or re-planned), resulting in a deficit or elimination of the surplus.

In a separate memorandum to the Census Bureau, we are recommending that the Director ensure
improvements are made in the transparency of its budget process, especially the presentation of
surplus (or elimination of the surplus) as shown in the FMRs.




                                               22
                  OIG Quarterly Report to Congress, May 2010

                                  Chapter 4:
          Update to Census’s Risk Management Activities and Security
As our previous quarterly reports have noted, the bureau’s risk management program represents
a significant improvement over the 2000 decennial, which lacked a formal risk management
process. Census’s Risk Review Board (RRB)—a subgroup of the Census Integration Group—
continues to oversee risk management activities and update its risk register. As of April 8 the
register contained 24 program-level risks, with each rated high (likely), medium (somewhat
likely), or low (unlikely)—colored red, yellow, or green, respectively. As discussed in our third
quarterly (for the period October–December 2009), Census reported 8 high-, 14 medium-, and 3
low-level risks. For the period January through March 2010, the RRB upgraded two medium
risks to high risks, downgraded a medium risk to a low risk, and closed one risk. Also during this
period, the board held monthly meetings to specifically review each risk rating on its register to
comply with the requirements of its risk management plan. Finally, the RRB continued to
finalize and implement contingency plans for program risks to guide the bureau in addressing
problems that might arise should mitigation plans and activities fail. We reviewed four additional
contingency plans that have been completed to date, and they appear to be adequate and
informative.


Risk Review Board Continues Monthly Reviews and Updates the Risk Register

The RRB continued to hold monthly meetings in addition to its weekly meetings, to review the
status of each program-level risk and to verify whether individual risk managers are
appropriately monitoring and assessing their respective risks. The monthly meetings have been
useful for the board as several risk status changes have been made at those times. Table 5
indicates the current risk-level ratings.




                                               23
                    OIG Quarterly Report to Congress, May 2010

         Table 5. Program-level Risk Ratings, as of March 24, 2010,
                 Indicating Changes From Previous Quarter

                                                                                  December   March
  Risk Grouping         Risk                                                        2009     2010
                        Contract management issues                                  High      High
  Operations and        Late design changes                                         High      High
  Systems Risks         2010 operational and systems failures                       High      High
                        FDCA decentralization/reintegration                         High      High
                        Housing unit duplicates and misses                          High      High
                        Exception enumeration quality                               Low       Low
   Quality Risks        Inaccurate Puerto Rico address lista                       Medium     High
                        Data quality                                               Medium    Medium
                        Within-household person over-coverage and under-
                                                                                   Medium    Medium
                        coverage
                        IT security breach                                         Medium    Medium
                        Loss of confidential data affecting response               Medium    Medium
Public Cooperation      Respondent cooperation                                     Medium    Medium
       Risks
                        Stakeholder support                                        Medium    Medium
                        Immigration policy backlasha                               Medium     High
  Major Disasters       Major disaster's effect on population                       High      High
     Affecting          Continued operations of critical infrastructure during
    Population                                                                     Medium    Medium
                        disasters
                        Permanent staff retention                                   Low       Low
   Staffing Risks
                        Inability to recruit sufficient temporary workforce         Low       Low
                        Uncertainty of assumptions in cost model                   Medium    Medium
   Budget Risks         Continuing resolutionb                                     Medium    Closed
                        Insufficient funding                                       Medium    Medium
     Schedule           Falling behind schedule on key milestones                   High      High
                        H1N1 influenza affecting regional Census’ centers and
                                                                                   Medium    Medium
                        local Census offices activities
                        H1N1 influenza and similar contagious illnesses
      Not Yet
                        affecting non-regional Census centers and non-local        Medium     Low
    Categorized
                        Census offices activitiesc
                        Litigation that threatens the delivery of apportionment
                                                                                    High      High
                        and redistricting data
Source: U.S. Census Bureau data
a
  Risk increased from medium in December 2009 to high in January 2010.
b
  Risk has been closed.
c
  Risk decreased from medium in December 2009 to a low in March 2010.




                                                    24
                      OIG Quarterly Report to Congress, May 2010

The RRB agreed to close the “Continuing Resolution” risk and remove it from the risk register.
The significant cost of the 2010 Census is incurred during FY2010. Because the budget requests
for FY2011 through FY2013 are each less than the previous fiscal year, there is no longer a
concern that Census will have inadequate funds for operating under a continuing resolution 6 .

At the January monthly status meeting, the RRB increased the “Immigration Policy Backlash”
risk from a medium- to a high-level risk due to the board’s concern for a potential boycott.
Although boycotts had been threatened in the past, the board felt that the existing boycott had the
potential to become national. At the same time, the board agreed to change “Inaccurate Puerto
Rico Address List” from a medium- to a high-level risk. Puerto Rico has unique address fields
that do not match Census’s address systems. The division responsible for delivering the final
processing requirements to accommodate the Puerto Rico fields into the address file used for
NRFU was approximately 2 months behind schedule; this delay could affect the NRFU operation
in Puerto Rico. Recognizing this, the board took action by raising it to a high-level risk.

At the February monthly status meeting, the RRB decreased the “Influenza and Similar
Contagious Illnesses Affecting Non-regional Census Centers and Non-local Census Offices’
Activities” risk from medium to low because the board felt comfortable with the status of
Census’ mitigation strategies and actions, such as having hand sanitizer available to staff, and
due to the approaching end of flu season. However, the RRB was hesitant to lower the “Influenza
Affecting Regional Census Centers and Local Census Offices” risk because NRFU, the largest
operation, had not yet begun.

At the April monthly status meeting, the RRB reported that the risk “Housing Unit Duplicates
and Misses” encompassed changes to the environment that could potentially affect the risk. For
instance, weather prohibited certain geographic areas in the U/L operation to be accessed and
completed during the scheduled timeframe. As a result, Census is taking appropriate action by
adding these inaccessible areas into the NRFU operation with designation for the enumerators to
identify potential missed or new housing units not included in the address list. Secondly, not all
binders containing work assignments from U/L have been accounted for; efforts are underway to
locate the missing binders. If Census is unable to locate a binder, the assignment will be added to
NRFU with designation for the enumerator to identify potential missed or new housing units not
included in the address list. Lastly, Census is continuing to work with six American Indian
reservations to convince them to participate in the 2010 Census. Despite these changes, the risk
rating was not changed due to its already high-level rating.

Update on Contingency Plans. Census’s risk management plan calls for development of
contingency plans to guide the bureau in addressing problems that might arise should mitigation
plans and activities aimed at program risks fail. During this period, the RRB continued to review
drafts of contingency plans for the 12 of 25 risks that it selected for such plans. Table 6 shows
the status of the 12 risks selected for contingency planning.



6
  A continuing resolution is legislation that provides temporary program funding at current levels or less in
situations where the current fiscal year ends without a new program appropriation in place.



                                                          25
                 OIG Quarterly Report to Congress, May 2010

As of March 24, 2010, the board had finalized eight contingency plans and given preliminary
approval for four others. These plans will become effective upon final RRB review once the
board’s comments from a previous review have been addressed. In the last quarterly report, the
status included two contingency plans in progress, seven conditionally approved, and four
finalized. Since that report, the RRB has finalized four additional contingency plans and closed
the “Continuing Resolution” risk, which had previously been selected for a contingency plan.
However, with several decennial operations completed or underway, and NRFU—the largest
decennial operation—beginning in May, it is a concern that a significant number of contingency
plans have yet to be finalized. For example, as we have reported in each of our three prior
quarterly reports, PBOCS has experienced major problems in the field, yet the contingency plan
for the risk “2010 Operational and Systems Failures,” which should guide Census staff in dealing
with such problems, has not been finalized.

       Table 6. Status of Contingency Plans, as of March 24, 2010,
                Indicating Changes From Previous Quarter


                                                 Risk
                                                Status,          Contingency Plan Status
                                                March          In      Conditionally
Risk                                             2010       Progress    Approved     Finalized
IT security breach                              Medium                                   X 
Loss of confidential data affecting response    Medium                                   X 
Continued operations of critical                Medium                                    X 
infrastructure during disasters                                                
H1N1 influenza affecting regional Census        Medium                                    X 
centers and local Census offices activities                                    
Uncertainty of assumptions in cost model        Medium                                    X 
Continuing resolution                           Closed
Insufficient funding                            Medium                       X 
Housing unit duplicates and misses               High                                     X 
Falling behind schedule on key milestones        High                        X 
2010 operational and systems failures            High                        X 
Within-household person over-coverage           Medium                       X 
and under-coverage                                                                          
Major disaster's effect on population               High                                  X 
H1N1 influenza and similar contagious
illnesses affecting non-regional Census
                                                    Low                                   X 
centers and non-local Census offices                                           
activities
Source: U.S. Census Bureau data




                                               26
                  OIG Quarterly Report to Congress, May 2010

Finalized Contingency Plans Appear to Address Program Risks
The four contingency plans finalized since the last quarterly report are for the following risks:
(1) “H1N1 Influenza and Similar Contagious Illnesses Affecting Non-regional Census Centers’
and Non-local Census Offices’ Activities,” (2) “Major Disaster’s Effect on Population,”
(3) “Uncertainty of Assumptions in Cost Model,” and (4) “Housing Unit Duplicates and Misses.”
A contingency plan will be triggered if its mitigation activities are no longer effective, prompting
the risk to materialize. When a trigger—such as a date or an event—occurs, appropriate Census
staff will assess impacts to the decennial schedule and resources, take necessary actions to
resolve problems, and monitor their effects on operations. Overall, these finalized contingency
plans appear to be reasonable for addressing the potential risks if they occur.

The combined mitigation and contingency plan for the risk entitled “H1N1 Influenza and Similar
Contagious Illnesses Affecting Nonregional Census Centers’ and Nonlocal Census Offices’
Activities” was added in the event that an H1N1 influenza outbreak sickened large numbers of
decennial staff or contract employees at major locations such as headquarters and data capture
centers.

The contingency plan for the risk “Major Disaster’s Effect on Population” considers the planning
and response needed should a natural or manmade disaster impair the completion of a field
operation. The plan provides an assessment framework to evaluate the severity of the disaster
and provides examples of post-analysis results, such as delayed or limited access to
geography/population and displaced population. If a trigger occurs, the plan relies on a rapid
response team to take appropriate action depending upon the nature of the disaster, the operation
impacted, and the magnitude and timing of the impact. Although a rapid response team would be
beneficial, the plan would have been more helpful if it identified general methods and actions for
responding to various post-analysis results, such as displaced populations.

The contingency plan for the risk “Uncertainty of Assumptions in Cost Model” addresses the risk
that inaccurate cost model assumptions will affect Census’s field operations. This plan details
triggers that focus on identifying projected expenditures for operations that exceed a certain
percentage of total planned expenditures. For example, one of the triggers occurs when
expenditures after initial training for NRFU or vacant/delete check exceed 15 percent of their
respective budgets. This development indicates possible over-hiring that could result in the
bureau’s exceeding overall planned expenditures for those operations. When a trigger occurs,
Census staff will quickly analyze whether the projected shortfalls can be mitigated by
management action or covered by the budgeted contingency for that operation. If not, Census
must prepare a justification to the Department and the Office of Management and Budget
requesting additional funds from outside the bureau. By monitoring expenditures and projecting
overruns early in an operation, Census can act to avoid exceeding the budgets for its operations
and ensure that its overall contingency fund is adequate to cover cost overruns.

Finally, the contingency plan for the risk “Housing Unit Duplicates and Misses” has the intent of
minimizing significant under- or over-coverage by reducing the number of housing-unit
duplicates and misses. The plan includes three triggers, with two focusing on under-coverage and
one on over-coverage. The first trigger for under-coverage, which has already been activated and


                                                27
                  OIG Quarterly Report to Congress, May 2010

monitored since October 2009, involved comparing post-address canvassing counts at a county
level against independent county-level estimates from a Census division. When the criterion for
the data threshold was met for a county, follow-up research was completed. Addresses added as
a result of this research will be located and enumerated during the vacant/delete check
component of NRFU.

The second trigger for under-coverage, which has already been activated and monitored since
November 2009, involved investigating the 96,000 potential housing unit addresses identified
during the quality control segment of address canvassing. Addresses that were not found in
Census’s address file will be added to the enumeration workload during vacant/delete check.

The trigger for over-coverage includes comparing the estimated field verification workload of
2 million housing-unit duplicate cases against the actual workload received. If the actual
workload is substantially higher, a rapid response team will convene to discuss a course of
action. This plan includes actions that should help diminish the number of housing unit
duplicates and misses as a way to improve the quality of the census.


OIG Tests Security at Key Census Facilities
All 2010 Census questionnaires mailed to U.S. residents during the course of the census are
returned by mail to one of three national data-capture centers located around the country. At
these centers, the completed forms are converted to digital images and the results transmitted for
further processing. In order to help ensure the safe, timely, and uninterrupted conduct of the 2010
Census, we performed physical security penetration testing at these facilities in March 2010. The
testing was scheduled for a time frame that would allow the Department to take corrective action
before mail responses were returned to the centers. We used a scenario-based testing program in
which role players from OIG attempted to access each facility in ways that would identify gaps
and deficiencies in physical security for appropriate remediation.

We coordinated with the Department’s Office of Security and with Census Bureau officials, both
in preparation for and during the testing, to ensure that the testing could be conducted in a safe
manner for all participants. This liaison also ensured that testing was conducted with minimal
disruption to the production operations of the facilities. Finally, it allowed Office of Security
managers to be present to see firsthand the issues our testing disclosed, and thus facilitated the
immediate correction of identified vulnerabilities where possible.

Our testing program disclosed minor issues and suggested refinements in training and procedures
at some locations. At other locations, we discovered and brought to light significant
vulnerabilities in need of prompt correction, which might not otherwise have been detected by
Census or the Department. At all tested facilities, we conducted immediate debriefings with
Census and Security management personnel, and made recommendations as to security needs
highlighted by our testing. The Census Bureau and the Office of Security have informed us that
they have implemented significant improvements in security at these facilities as a result of this
program, and have expanded their own internal program of penetration testing, which will
continue throughout the remainder of the 2010 Census.


                                                28
                  OIG Quarterly Report to Congress, May 2010

                                      Appendix A:
                          Objectives, Scope, and Methodology
To satisfy the requirement for our fourth quarterly report on the 2010 Census, we have provided
an update on the status of 2010 Census activities with respect to schedule, cost, and risk
management activities. This information covers activities that occurred January–March 2010.

To accomplish our objectives, we conducted a review of documentation, including monthly
status reports, field operations logs, computer help desk logs, activity schedules, program
management reviews for 2010 Census contracts, and updates to plans for Census-managed
activities such as paper-based operations, financial management and status of funds reports,
internal budget variance reports, risk registers, and mitigation and contingency plans for
program-level risks. We attended weekly schedule and risk management meetings during this
reporting period. We also met with system managers, spoke with subject-matter experts, and
listened to daily meetings of technical oversight groups.

After intensive planning efforts, we prioritized our review of 2010 Census operations based on
their highest perceived risk. We deployed almost 100 staff across the country to perform field
observations during early 2010 Census operations including update/leave, update/enumerate,
enumeration at transitory locations, and service-based enumeration. To ensure nationwide
coverage, we initially selected at least one early local Census office per Census region. We
prioritized our selection of local Census offices based on the bureau’s demographic measures of
enumeration difficulty, operational factors such as blocks with large populations, and significant
socioeconomic changes such as high foreclosure rates or high growth rates. Next, we identified a
smaller sample conveniently located near OIG offices. The remaining selections were included
to ensure adequate representation of population density and specific hard-to-count populations.
For example, we intentionally included the rural Mississippi Delta and the hurricane-affected
Galveston, Texas, areas. We balanced the sample by including several areas that were not
considered hard to count. Finally, we reviewed areas where reported or perceived problems were
occurring. Our field operation reviews included observation of operation-specific 2010 Census
enumerator training classes, field operations, and local Census office procedures, practices, and
conditions.

We conducted this review from February through April 2010, under the authorities of the
Inspector General Act of 1978, as amended; Departmental Organization Order 10-13, dated
August 31, 2006, as amended; and in accordance with the Quality Standards for Inspections
(revised January 2005) issued by the President’s Council on Integrity and Efficiency.




                                                29
